Nos. 20-542, 20-574

In the Supreme Court of the United States
REPUBLICAN PARTY OF PENNSYLVANIA,
Petitioner,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF
STATE, ET AL.,
Respondents.
JOSEPH B. SCARNATI, III, ET AL.
Petitioners,
v.
KATHY BOOCKVAR, IN HER OFFICIAL CAPACITY AS PENNSYLVANIA SECRETARY OF
STATE, ET AL.,
Respondents.
On Petitions for Writs of Certiorari to the Pennsylvania Supreme Court
CERTIFICATE OF SERVICE

In accordance with Rule 29.5(b) and the Court’s April 15, 2020 Order, I certify
that the required copies of the Brief of Missouri and Nine Other States as Amici
Curiae in Support Petitioners in the above captioned cases have been sent to the U.S.
Supreme Court by commercial overnight delivery, and electronic copies were served
by electronic mail on the following parties listed below on November 9, 2020.
For 20-542, Republican Party of Pennsylvania v. Kathy Boockvar, et al:
John Matthew Gore
JONES DAY
51 Louisiana Avenue, N.W.
Washington, DC 20001
jmgore@jonesday.com
Counsel for Republican Party of Pennsylvania
Joseph Matthias Cosgrove
SELINGO GUAGLIARDO LLC

345 Market Street
Kingston, PA 18704-0000
jmcosgro@msn.com
Counsel for Luzerne County Board of Elections
John Bartley DeLone
ATTORNEY GENERAL’S OFFICE
PENNSYLVANIA OFFICE OF ATTORNEY GENERAL - APPELLATE LITIGATION SECTION
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov
Counsel for Kathy Boockvar
Donald B. Verrilli Jr.
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
donald.verrilli@mto.com
Counsel for Pennsylvania Democratic Party
David B. Rivkin Jr.
BAKER & HOSTETLER LLP
1050 Connecticut Avenue, N.W.
Suite 1100
Washington, DC 20036
drivkin@bakerlaw.com
Counsel for Honest Elections Project
Jay Alan Sekulow
CONSTITUTIONAL LITIGATION AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave. NW, Suite 200
Washington, DC 20006
jsekulow@claglaw.com
Counsel for Donald J. Trump for President, Inc.

For 20-574, Republican Party of Pennsylvania v. Kathy Boockvar, et al:
Jason Brett Torchinsky:
HOLTZMAN VOGEL JOSEFIAK TORCHINSKY PLLC
15405 John Marshall Hwy
Haymarket, VA 20169
Jtorchinsky@hvjt.law
Counsel for Joseph B. Scarnati, III, et al.
Joseph Matthias Cosgrove
SELINGO GUAGLIARDO LLC
345 Market Street
Kingston, PA 18704-0000
jmcosgro@msn.com
Counsel for Luzerne County Board of Elections
John Bartley DeLone
ATTORNEY GENERAL’S OFFICE
PENNSYLVANIA OFFICE OF ATTORNEY GENERAL -APPELLATE LITIGATION SECTION
15th Floor, Strawberry Square
Harrisburg, PA 17120
jdelone@attorneygeneral.gov
Counsel for Kathy Boockvar
Donald B. Verrilli Jr.
MUNGER, TOLLES & OLSON LLP
601 Massachusetts Avenue, NW
Suite 500E
Washington, DC 20001-5369
donald.verrilli@mto.com
Counsel for Pennsylvania Democratic Party
Jay Alan Sekulow
CONSTITUTIONAL LITIGATION AND ADVOCACY GROUP, P.C.
1701 Pennsylvania Ave. NW, Suite 200
Washington, DC 20006
jsekulow@claglaw.com
Counsel for Donald J. Trump for President, Inc.

November 9, 2020

Respectfully submitted,
s/ D. John Sauer
ERIC S. SCHMITT
Attorney General
D. John Sauer
Solicitor General
Counsel of Record
Jeff P. Johnson
Deputy Solicitor General
OFFICE OF THE MISSOURI
ATTORNEY GENERAL
Supreme Court Building
207 West High Street
P.O. Box 899
Jefferson City, MO 65102
John.Sauer@ago.mo.gov
(573) 751-8870
Counsel for Amici Curiae

